Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 Adoption and Foster Care Analysis
 and Reporting System (AFCARS):
    Challenges and Limitations




                    JANET REHNQUIST
                     Inspector General

                       MARCH 2003
                      OEI-07-01-00660
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                         EXECUTIVE                      SUMMARY

OBJECTIVE

         To identify the challenges and limitations associated with reporting Adoption and Foster Care
         Analysis and Reporting System (AFCARS) information.

BACKGROUND

         Foster care and adoption information reported to the Administration for Children and Families
         (ACF) through AFCARS is the only federal national data available regarding the children in
         foster care and the children adopted under the auspices of a state agency. All states are
         required to report child-specific information to ACF semiannually through AFCARS. Based
         on the most recent AFCARS data available, there were an estimated 565,000 children in foster
         care on September 30, 2001, and 51,000 children adopted during fiscal year 2000.

         It is important that information reported through AFCARS is timely and accurate. The
         AFCARS provides ACF with data necessary to comply with congressionally-mandated
         reporting requirements, to measure the performance of state child welfare agencies, and to
         allocate incentive and formula grant funds (i.e., adoption incentive funds and Chaffee Foster
         Care Independence Program funds, respectively). The ACF, Congress, state child welfare
         agencies, and national child welfare organizations also use AFCARS data to make national
         policy and program decisions. Federal requirements placed on states to report AFCARS data
         have served to enhance national child welfare data collection.

         In conducting this inspection, we systematically collected information from foster care and
         adoption program managers and information systems staff from the 50 states, the District of
         Columbia, and Puerto Rico. We also held in-depth discussions with child welfare managers
         and staff, and reviewed state processes and procedures for collecting AFCARS information in
         five states.



FINDINGS

The ACF has Failed to Meet Mandated Time Frames for Submitting Annual
Reports to Congress

         The ACF has not met the mandated deadlines for submission of annual reports to Congress.
         The first annual report, due May 1999, was published in August 2000, 15 months late. The
         second annual report, due May 2000, was published in January 2002, 19 months late. At the
         time of our review, the third and fourth annual reports had not been published and were
         overdue. Published data do not reflect states’

AFCARS: Challenges and Limitations                  i                                    OEI-07-01-00660
         recent efforts to promote permanency or changes in the status of foster care and adoption.
         Published information is also inconsistent and incomplete.

States Reported That Key AFCARS Data Elements Are Not Clearly and
Consistently Defined, Resulting in Inconsistent Reporting

         Our analysis of ACF guidance on reporting AFCARS data supports states’ beliefs that the lack
         of clear definitions leads to inconsistent reporting. States believed AFCARS data elements
         were not clearly and consistently defined and expressed concerns about foster care placement
         definitions, which potentially affect child welfare performance measures. In addition,
         differences in states’ methods of reporting dates of discharge and juvenile justice populations
         may further inhibit uniform performance measures.

Technical Assistance Is Effective, but Difficult to Access

         The ACF has developed technical assistance to address many of the difficulties associated with
         AFCARS reporting. Overall, states rated the technical assistance they received highly.
         However, states reported that attending national sessions is difficult, due to state travel
         restrictions and limited state budgets.

Mandated Penalties Were an Incentive to Report AFCARS Data, but Were Not
Commensurate with Non-Compliance

         Even though federally-mandated penalties, designed to ensure reliable and consistent AFCARS
         reporting, have been withdrawn, states reported that the penalties served as an incentive for
         accurate reporting. However, only 15 percent of state respondents believed the penalties, as
         defined, were commensurate with non-compliance.

CONCLUSION and RECOMMENDATIONS

         Annual reports to Congress are not published timely. As such, published data do not reflect
         recent changes in child welfare populations. Also, states are reporting incomplete and
         inconsistent data. These data are used in developing national standards by which states are
         evaluated. Technical assistance designed to address the difficulties associated with the
         collection and reporting of AFCARS information, while highly rated, is difficult to access.
         Furthermore, the penalties that served as an incentive for accurate reporting have been
         withdrawn.

         As such, we make the following recommendations to ACF to enhance the usefulness of
         AFCARS data.

              •	 Make up-to-date child welfare statistics reported through AFCARS available to
                 program officials and other decision-makers by publishing annual reports within
                 congressionally-mandated time frames and posting current information on the Internet,
                 issue precise definitions for data elements to prevent states from

AFCARS: Challenges and Limitations                  ii                                   OEI-07-01-00660
                   interpreting them differently, and issue a definitive policy statement to address
                   inconsistencies in state AFCARS reporting of juvenile justice populations.

              •	 Increase the accessibility of technical assistance resources through the development of
                 regional data conferences, utilization and training of regional office staff to provide
                 increased support to states, posting more current and comprehensive AFCARS
                 information on the ACF website, and exploring ways to expedite discretionary
                 AFCARS reviews.

              •	 Develop incentives to help ensure state compliance with AFCARS regulations by
                 documenting states’ past compliance with AFCARS requirements to establish a
                 baseline for reporting, monitor future AFCARS reporting, and develop incentives or
                 new penalties, commensurate with varying levels of compliance.

Agency Comments

         The ACF supports our recommendations and indicates that it is assessing internal agency
         processes for analyzing data and meeting required reporting time frames. The ACF referenced
         recently issued policy guidance regarding trial home visits and indicated that it will consider
         issuing clarifying guidance to alleviate inconsistent reporting of foster children included in
         juvenile justice populations. The ACF also stated that it will support ACF regional meetings
         focused on data-related issues, provide training to and utilize regional office staff in providing
         technical support to states, and explore ways to expedite AFCARS assessment reviews. The
         ACF will monitor and document compliance with AFCARS standards and seek ways to
         encourage timely and accurate reporting of AFCARS data. The full text of the comments
         provided by ACF is contained in Appendix C of the report.




AFCARS: Challenges and Limitations                     iii                                     OEI-07-01-00660
                               TABLE OF CONTENTS

                                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

        The ACF has Failed to Meet Mandated Time Frames for Submitting Annual Reports to

        Congress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


        States Reported That Key AFCARS Data Elements Are Not Clearly and Consistently Defined,

        Resulting in Inconsistent Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


        Technical Assistance Is Effective, but Difficult to Access . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


        Mandated Penalties Were an Incentive to Report AFCARS Data, but 

        Were Not Commensurate with Non-compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


CONCLUSION AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES

        A: History of Foster Care and Early Data Collection Efforts . . . . . . . . . . . . . . . . . . . . . . . . . 14


        B: Statewide Automated Child Welfare Information Systems . . . . . . . . . . . . . . . . . . . . . . . . . 16


        C. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                                       INTRODUCTION

PURPOSE

        To identify the challenges and limitations associated with reporting Adoption and Foster Care
        Analysis and Reporting System (AFCARS) information.

BACKGROUND

        State child welfare agencies are responsible for protecting children from abuse and neglect,

        which sometimes requires that children be removed from their homes and placed in foster care. 

        These children remain in foster care until they can be reunited with their families, placed with a

        guardian, adopted, or emancipated. Based on the most recent published national data available,1

        there were an estimated 565,000 children in foster care on September 30, 2001, and state child

        welfare agencies were involved in the adoption of 51,000 children in federal fiscal year (FY)

        2000.


        Federal regulations require all states to report child-specific foster care and adoption data to

        ACF through AFCARS. The final rule, published in the Federal Register on

        December 22, 1993, requires states to collect and report specific information (66 data elements)

        about all children in foster care for whom the state has responsibility for placement, care, or

        supervision. The regulations also require information (37 data elements) about each child under

        state jurisdiction who was adopted or for whom the state agency is providing adoption

        assistance.2


        The first state submission of AFCARS data was due to ACF by May 15, 1995, and

        semiannually thereafter. Regulatory compliance is based on the timely submission of the data

        files, the timeliness of data entry for the date of removal and the date of discharge (these dates

        must be entered within 60 days of occurrence), and whether the data meet a 90 percent level of

        tolerance for missing data and internal consistency checks.3 Federal regulations indicate that

        states failing to meet these reporting criteria may be subject to financial penalties.4





         1
             Adoption and Foster Care Analysis Reporting System data for period ending September 30, 2001.

         2
             45 CFR § 1355.

         3
             45 CFR § 1355, Appendix E.

         4
             45 CFR § 1355.40(e)(1).

AFCARS: Challenges and Limitations                            1                                              OEI-07-01-00660
        The ACF’s administrative uses for AFCARS data include developing outcome measures to

        assess state child welfare agency performance,5 determining Chafee Foster Care Independence

        Program allotments,6 determining increases in adoptions for the purpose of awarding adoption

        incentive payments to states,7 creating the data profiles used in the Children and Family Services

        Reviews,8 and selecting sample cases to be included in Title IV-E Foster Care

        Eligibility Reviews.9


        In addition, AFCARS is one of the principal information sources used to prepare ACF’s child

        welfare outcomes annual report. This report, required by Section 479A of the Social Security

        Act, requires the Secretary of the Department of Health and Human Services (HHS) to submit a

        report to Congress “on the performance of each State on each outcome measure, which shall

        examine the reasons for high and low performance and, where possible, make recommendations

        as to how State performance could be improved.” [emphasis added] The first annual report, for

        FY 1998, was due May 1, 1999. Federal law requires that subsequent reports be submitted to

        Congress annually thereafter. Information regarding the history of foster care and data collection

        efforts preceding AFCARS is provided in Appendix A.


METHODOLOGY

        We used two mechanisms to conduct this inspection. We systematically collected data from
        foster care and adoption program managers and information systems staff in the 50 states, the
        District of Columbia, and Puerto Rico. Using a comprehensive mail survey, we collected
        information on the challenges and limitations associated with gathering and reporting AFCARS
        data and using the data to effectively administer child welfare programs and services. We
        achieved a 100 percent response rate.

        We judgementally selected a sample of five states (Arkansas, California, Illinois, New York, and
        Ohio) for additional data collection. We worked with ACF to select these states based on the
        following criteria:

                •	 Ability to comply with AFCARS regulations - For the reporting period ending
                   March 31, 2001, three states were in substantial compliance with both adoption and
                   foster care standards, one state was in substantial compliance with adoption standards
                   only, and one state was out of substantial compliance with both adoption and foster
                   care reporting requirements.


         5
             45 CFR § 1355.34(b).

         6
             Section 477 of the Social Security Act .

         7
             Section 473A of the Social Security Act.

         8
             45 CFR § 1355.33(b)(2).

         9
             45 CFR § 1356.71(c)(1).

AFCARS: Challenges and Limitations                      2                                  OEI-07-01-00660
               •	 Level of Statewide Automated Child Welfare Information System (SACWIS)10
                  development - ACF classified the SACWIS in two states as operational, partially
                  operational in one state, in the implementation phase in one state, and in the planning
                  phase in the remaining state. An overview of SACWIS is provided in Appendix B.

               •	 Child welfare population - The combined child welfare populations in the 5 states
                  represented 50 percent of children in foster care nationwide. The average monthly
                  number of children in foster care in each of the 5 states ranged from 1,624 to 78,222
                  during fiscal year 1999.

               •	 Program administration - The child welfare programs were state-administered in three
                  states and county-administered in the other two.

         In the five states, we collected more in-depth information about state experiences reporting
         AFCARS information and the impact it had on their programs. We examined reports
         produced at the state and local levels for program management and compliance purposes,
         observed caseworkers and data entry staff enter data as they explained the features and
         limitations of their respective systems, and viewed electronic and paper versions of case files.
         The review of these reports and our observations allowed us to experience the data collection
         process from point of entry to submission. We also interviewed state child welfare supervisors,
         caseworkers, and data entry workers in a local child welfare office in each of the five states,
         and analyzed national AFCARS policy guidance provided by ACF.

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




         10
              45 CFR § 1355.53(b)(1).

AFCARS: Challenges and Limitations                     3                                     OEI-07-01-00660
                                               FINDINGS
         Our findings are based on a review of national policy guidance, surveys from all states, and
         observations and discussions during site visits to five states. The AFCARS data are the only
         federal national data available regarding children in foster care and children adopted under the
         auspices of a state agency. These data are used to measure state child welfare agency
         performance and to inform child welfare policy decision-makers. Therefore, it is critical that
         reported data are accurate and published in a timely manner. However, AFCARS data are not
         being published timely, and published data are incomplete and inconsistent. In addition, states
         experienced difficulties accessing technical assistance and were concerned about penalties
         associated with AFCARS reporting.

The ACF Has Failed to Meet Mandated Time Frames for
Submitting Annual Reports to Congress

         The ACF has not met the deadlines for submission of annual reports to Congress, as mandated
         in section 479A of the Social Security Act. This section requires the Secretary of HHS to
         submit an annual report to Congress on each state’s child welfare population. The first of these
         annual reports, due May 1999, covering FY 1998, was published in August 2000, 15 months
         late.11 The 1999 annual report, due May 2000, was published in January 2002, 19 months
         late.12 As of August 2002, ACF had not issued the reports for FY 2000 and FY 2001. The
         reports were due May 2001 and 2002, respectively. At the time of our review, the most recent
         state-specific information available on-line was an electronic copy of the FY 1999 annual
         report.

The 2-year-old Published Data Do Not Reflect Some States’ Recent Efforts to
Promote Permanency or Changes in the Status of Foster Care and Adoption

         The latest state-specific data published by ACF may not reflect current trends. We compared
         data reported in ACF’s published annual reports with more recent data for three of the five
         states we visited. These states comprised 36 percent of the children in out-of-home placements
         and 30 percent of the adoptions nationwide in FY 1999. The ACF’s annual reports indicate
         the number of children in out-of-home placements increased 3.75 percent from FY 1998 to FY
         1999, from 560,000 to 581,000. These reports represent the latest published federal data
         available. Yet, our examination of more recent data for three of the five states included in this
         study - unpublished state data obtained from ACF - shows that some states’ efforts, focused
         on permanency, are having a dramatic effect on the number of children in out-of-home
         placements in these states.



         11
              Child Welfare Outcomes 1998: Annual Report.

         12
              Safety, Permanency, Well-being: Child Welfare Outcomes 1999: Annual Report.

AFCARS: Challenges and Limitations                            4                             OEI-07-01-00660
              •	 Illinois: The ACF annual report, reflecting FY 1999 data, indicates 40,270 children
                 were in foster care in Illinois on September 30, 1999. State data for FY 2000 indicate
                 that, one year later, the number had decreased to 33,125. Data for FY 2001 show a
                 continuing decline to 29,278 in the foster care population on September 30, 2001, a 27
                 percent decrease over 2 years. The number of adoptions in Illinois also decreased by
                 44 percent during this time period, dropping from 7,028 in FY 1999 to 4,234 in FY
                 2000, then decreasing again to 3,934 in FY 2001.

              •	 New York: The ACF annual report, reflecting FY 1999 data, indicates
                 52,762 children in New York were in foster care on September 30, 1999. State data
                 for FY 2000 indicate that one year later that number had decreased to 47,208. Data
                 for FY 2001 show a continuing decline to 43,365 in the foster care population on
                 September 30, 2001, an 18 percent decrease over 2 years.

              •	 California: The ACF annual report, reflecting FY 1999 data, indicates
                 117,937 children were in foster care in California on September 30, 1999. State data
                 for FY 2000 indicate that one year later that number had decreased to 112,807. Data
                 for FY 2001 show a continuing decline to 107,168 in the foster care population on
                 September 30, 2001, a 9 percent decrease over 2 years.

         While these changes represent the experiences of only 3 states, these states represent a
         substantial percentage (36 percent) of children in out-of-home placements nationally.

         The change in the number of out-of-home placements could be even more significant if other
         states are experiencing similar reductions. Conversely, if the number of children in out-of-home
         placements nationally remains stable, other states may be experiencing substantial increases in
         children entering foster care. However, because ACF has not issued the 2000 and 2001
         annual reports, it is not possible for program managers and other decision-makers to make this
         determination.

Published Reports Contain Incomplete Data

         In the annual report due May 1999, representing FY 1998, no data were reported for 10 states
         and selected data were missing for 8 additional states. In the annual report due May 2000,
         representing FY 1999, no data were reported for 2 states and 10 states had data missing from
         their profiles. These gaps occurred despite the amount of time allowed by ACF for states to
         report corrected AFCARS data.

         State AFCARS data submissions are due to ACF by May 15 and November 14 of each year,
         45 days after the end of each 6-month reporting period. The data submitted must be extracted
         from state data systems on the last day of the reporting period and should reflect child-specific
         data. States are allowed to resubmit corrected AFCARS data anytime thereafter, and ACF
         reports spending a considerable amount of time “cleaning” the data. Once ACF begins
         preparing the annual report to Congress, it notifies each state of the most current reported
         information that it has on file. States are then officially afforded

AFCARS: Challenges and Limitations                   5                                     OEI-07-01-00660
         45 days to rectify incorrect or incomplete data prior to publication, a time frame that ACF
         reported has historically stretched beyond 45 days.

         For the reporting period ending March 31, 1998, all states submitted AFCARS data to ACF,
         but 25 were out of substantial compliance with AFCARS standards. For the reporting period
         ending March 31, 2001, 13 states remained out of substantial compliance.

States Reported a Variety of Factors Impact Their Ability to Capture and Report
AFCARS Data

Caseworker Priorities Affect Data Collection and Systems Entry

         Caseworkers are responsible for the collection and often the systems entry of AFCARS data.
         Most of the required AFCARS data are collected routinely as part of ongoing foster care and
         adoption case management. However, states reported that the collection and data entry of
         some AFCARS information were often a low priority for caseworkers. Large caseloads force
         caseworkers to focus on the immediate needs of children, such as removing children from
         harmful environments, locating appropriate care and needed services, attending court hearings,
         or working to meet the needs of foster and adoptive families; the need to focus on providing
         services limits the amount of time caseworkers spend on data gathering and data systems entry.

         While we did not attempt to identify or quantify AFCARS reporting errors specifically
         attributable to caseworkers, 80 percent (41) of the program managers surveyed indicated that
         caseworker workloads, turnover, and lack of training had an effect on the collection of
         AFCARS data, and 73 percent (38) reported that caseworkers entered data in an untimely
         manner. In addition, 61 percent (32) of the program managers surveyed indicated that the lack
         of complete information from local child welfare offices affected the reporting of AFCARS data
         in their states.

System Limitations Affect Reporting

         For states to meet AFCARS requirements, they must be able to convert data in their systems
         into the format that ACF requires. However, in addition to the challenges that states face in
         capturing and entering data, they have also experienced difficulty matching their own state data
         to the data element formats required by AFCARS. Many of the reporting problems are a result
         of the transferring or “mapping” data from the state’s system to ACF’s required format. For
         example, the AFCARS data element “Foster Family Structure” requires one state to transfer
         information captured in the state system as “Aunt and Uncle” to “Married Couple.” If
         information is “mis-mapped,” erroneous data can result.

         States that continue to capture foster care and adoption data using computer systems created
         prior to the advent of AFCARS are at an added disadvantage because these systems are often
         difficult or impossible to reprogram to conform to current data



AFCARS: Challenges and Limitations                  6                                     OEI-07-01-00660
         collection standards. In some instances, these antiquated systems lack the capacity to collect
         key pieces of information, such as previous adoption and caretaker background information.

         In an effort to assist states with systems issues, ACF voluntarily initiated AFCARS data
         systems reviews in 1996. The ACF is conducting these reviews in addition to federally-
         mandated reviews (e.g., Children and Family Services Reviews, IV-E Foster Care Eligibility
         Reviews) as resources become available. The ACF conducted 3 AFCARS data systems
         reviews in 2001, and had performed 11 at the time of this study. Respondents in states where
         these reviews have been conducted indicated that they found the reviews beneficial. A “State
         Guide to an AFCARS Assessment Review” was posted on the ACF website in April 2002.

States Reported That Key AFCARS Data Elements Are Not
Clearly and Consistently Defined, Resulting in Inconsistent
Reporting

         Although ACF provides definitions of all AFCARS data elements, 60 percent (31) of the state
         respondents believed AFCARS data elements are not clearly and consistently defined. Most
         commonly, states noted problems with placement and date-of-discharge definitions. In
         addition, 71 percent (37) of states reported that unique state child welfare program
         characteristics result in the reporting of AFCARS data that are inconsistent among states.
         However, ACF aggregates data from all states in its annual report to Congress. Furthermore,
         AFCARS is one of the data sources used to create national standards against which ACF
         evaluates individual state performance.

States Expressed Concerns About Placement Definitions, Potentially Affecting
Performance Measures

         Twenty-one of the 31 respondents who believed definitions are not clearly defined indicated
         that placement definitions were problematic, making it the most commonly cited source of
         confusion. The performance measure specifically related to placements tracks the number of
         children who are placed in two or fewer placement settings. At the time of our review, ACF
         policy guidance regarding foster care placements stated “placement occurs after removal and is
         the physical setting in which a child finds himself or herself, that is, the resultant foster care
         setting. A new placement setting results when the foster care setting changes, for example,
         when a child moves from one foster family home to another or to a group home or institution.”13




         13
              Child Welfare Policy Manual, Section 1 AFCARS.

AFCARS: Challenges and Limitations                             7                           OEI-07-01-00660
         Identical placements, like the example shown

                                                               Example of Common Placements
         in the text box to the right, were reported

                                                              During a Child’s Stay in Foster Care
         differently by states. For example, some

         states would report the number of placement

                                                             Child is removed from their home and
         settings in the example as three. Other states

         would report this as one foster home

                                                                 •   placed in a foster home,
         placement and one trial home visit, or two

         placement settings overall because the child

                                                                 •   returned home for a trial home
         was returned to the same foster home. Other

                                                                     visit, and
         states would report only one placement setting

         because they do not count trial home visits as

                                                                 •   returned to the same foster home.
         placements.


         Although 45 CFR §1355, Appendix A

         indicates that trial home visits should not be

         counted as a placement, at the time of our review, guidance provided in ACF’s Child Welfare

         Policy Manual did not specifically exclude any of the three interpretations mentioned above, nor

         did it support any one of the three interpretations over the others. Any variation in

         interpretation makes evaluating states against a single national standard – percentage of children

         served with no more than two placements – problematic.


Dates of Discharge may Impact Performance Measures Related to Time-in-Care

         The performance measure specifically related to time-in-care tracks the number of children who
         have been reunited with their parents or caretakers in less than 12 months. At the time of our
         review, the ACF policy guidance for date of discharge stated that the date should be recorded
         as “The month, day and year the child was discharged from foster care.” States defined end of
         placement differently. State definitions included when the child returns home for a trial home
         visit, a few days after a trial home visit begins, or when the state’s legal responsibility ends -
         which could be weeks after the child is returned home.

         Similar to placement definitions above, any of the state interpretations fell within the guidance
         ACF provided. According to one respondent, summarizing the concerns of many, the definition
         associated with the date of discharge “is so critical to the Child and Family Service Reviews’
         national standard measures, and so far from common understanding and use, that it dominates
         all of the useful data that might otherwise be provided.”

States’ Reporting of Juvenile Justice Populations Potentially Affects Placement
Performance Measures

         Forty-two percent (22) of the survey respondents included some or all of their juvenile justice
         populations in child welfare data reported through AFCARS. Policies regarding the movement
         of juvenile justice children to increasingly less restrictive placements



AFCARS: Challenges and Limitations                   8                                      OEI-07-01-00660
         (e.g., moving a child from a detention facility to a mental health treatment facility and then to a
         foster home) may result in an inflated number of placements for some states. Because these
         “additional” placements are often attempts to return a child to their own home or improve the
         child’s well-being, they are not necessarily an indication of poor child welfare practice.

         The ACF guidance regarding the inclusion of children in juvenile justice facilities was not
         definitive and contains subjective criteria for determining whether or not these children should
         be included in AFCARS reported data.14 For example, ACF guidance instructs states to
         include in reported AFCARS data “children in a foster care setting who are moved to a juvenile
         justice facility and who are expected to be returned to a foster care setting.” As a result,
         state-reported data for this population is inconsistent and may skew states’ performance related
         to the number of foster care placements for these children. The ambiguity of ACF guidance
         regarding the inclusion of children in juvenile justice facilities in reported AFCARS data may
         result in an inflated number of foster care placements for some states, and the inability to
         reliably compare states against national placement standards.

Technical Assistance Is Effective, but Difficult to Access

         The ACF has developed technical assistance to address many of the difficulties associated with
         AFCARS reporting. These efforts include, but are not limited to

                •	 national data conferences where presentations and materials are offered to assist states
                   with AFCARS reporting,

                •	 AFCARS reviews in which ACF staff visit a state to perform an extensive review of its
                   data system to identify problems associated with AFCARS data collection and
                   reporting, and to verify the accuracy of data in the system,

                •	 Children’s Bureau headquarters staff providing extensive telephone and electronic mail
                   support to states,

                •	 Children’s Bureau headquarters staff providing on-site and telephone support to states
                   through the National Resource Center on Information Technology in Child Welfare,
                   and

         •          technical bulletins15 and program policy16 related to AFCARS available on the Internet.




         14
              Child Welfare Policy Manual, Section 1 AFCARS.

         15
              http://www.acf.dhhs.gov/programs/cb/dis/afcars/tbs.html

         16
              Child Welfare Policy Manual, http://www.acf.hhs.gov/programs/cb/laws/cwpm/index.jsp .

AFCARS: Challenges and Limitations                             9                                      OEI-07-01-00660
         The number of states out of compliance with AFCARS reporting decreased from 25 in 1998 to
         13 in 2001, and states reported that technical assistance proved valuable in facilitating states’
         reporting of AFCARS data. States rated this assistance highly. However, states also report
         that some assistance is difficult to access. State program managers indicated travel restrictions
         and budget constraints often prevented them from attending conferences and meetings where
         technical assistance was offered. For example, only half of the states attended the User’s
         Group meetings in May and November of 2001. For each meeting, half of those that did not
         attend noted they were unable to attend due to budget constraints or state travel restrictions.

         Respondents also noted that, although ACF headquarters staff were very helpful, they
         were sometimes difficult to reach. They indicated that ACF staff were especially difficult to
         reach immediately prior to AFCARS reporting period deadlines when many states are
         simultaneously requesting assistance from a limited number of ACF headquarters staff.
         Respondents also revealed that it was difficult or impossible to access updated and current
         AFCARS information. They believed more current policy and regulatory information available
         on the Internet would serve as an important reference source for state foster care, adoption,
         and systems staff. Specific suggestions for improvement offered by states included adding more
         detailed and user-friendly descriptions of foster care and adoption data elements to the ACF
         AFCARS website, notifying relevant state staff when new technical bulletins are posted on the
         Internet and when policy changes occur, and posting more helpful “frequently asked questions”
         to the website than those currently available.

Mandated Penalties Were an Incentive to Report AFCARS
Data, but Were Not Commensurate with Non-compliance

         Section 479 of the Social Security Act states that ACF shall “utilize appropriate requirements
         and incentives to ensure that the [child welfare reporting] system functions reliably throughout
         the United States.” The Department issued regulations stating that “penalties shall be invoked”
         for “failure by a state to meet any of the [AFCARS] standards described” and that such failure
         is “considered a substantial failure to meet the requirements of the Title IV-E [Foster Care
         Program].”17 However, the Department rendered a decision to withdraw the penalties
         associated with failure to comply with AFCARS reporting requirements on January 27, 2002.
         Therefore, no penalty for failure to comply with AFCARS reporting requirements currently
         exists.18 It is too early to tell whether removal of penalties will impact the timeliness and
         completeness of state data submissions, or whether states will choose to report at all.

         When asked if they believed the penalties served as an incentive for accurate AFCARS
         reporting, 85 percent (44) of the respondents said “yes.” However, only 15 percent (8) of




         17
              45 CFR § 1355.40(e).

         18
              ACYF-CB-IM-02-03, dated April 8, 2002.

AFCARS: Challenges and Limitations                     10                                 OEI-07-01-00660
         the respondents believed the penalties, as defined, were commensurate with non-compliance.
         Respondents were troubled by the “all-or-nothing” nature of penalties and argued that there
         was no incentive to improve reporting when the penalty for failure to report on a single required
         data element was the same as that for failure to report at all. They noted that a state reporting
         no AFCARS data would receive the same penalty as a state that made a concerted effort to
         improve data quality, but failed to meet just one AFCARS compliance standard.




AFCARS: Challenges and Limitations                  11                                     OEI-07-01-00660
                                      CONCLUSION AND
                                     RECOMMENDATIONS

         Annual reports are not issued timely and data reported are incomplete and inconsistent. The
         delayed publication of existing AFCARS data does not reflect recent changes in child welfare
         populations, and inconsistencies raise questions about its usefulness in developing national
         standards or measuring states against those standards. Technical assistance designed to
         address the difficulties associated with the collection and reporting of AFCARS information,
         while highly rated, is difficult to access. Furthermore, the penalties states reported were an
         incentive for accurate reporting have been withdrawn.

         While states are responsible for the collection of information reported through AFCARS, the
         ACF is responsible for administering the Title IV-E Foster Care Program, overseeing state
         AFCARS reporting, and publishing reported AFCARS data. As such, we make the following
         recommendations to ACF to enhance the usefulness of AFCARS data for program
         management purposes, and to make national child welfare outcome measures more reliable.

ACF Should Work to Make AFCARS Data More Useful

           To alleviate problems associated with timeliness, comparability, and other factors which limit
           AFCARS data usefulness, we recommend that the ACF

              •	 make up-to-date child welfare statistics in AFCARS available to program officials and
                 other decision-makers by publishing annual reports within congressionally-mandated
                 time frames and posting current information on the Internet,

              •	 issue more precise definitions for data elements currently interpreted differently by
                 states (i.e., data definitions regarding placements and dates of discharge from foster
                 care), and

              •	 issue a definitive policy statement to address the inconsistencies in state AFCARS
                 reporting of juvenile justice populations.

ACF Should Increase the Accessibility of Technical
Assistance Resources

              Because technical assistance has helped to improve the quality of AFCARS data, but has
              been difficult to access, the ACF should strive to increase access to and the impact of
              available assistance by




AFCARS: Challenges and Limitations                   12                                     OEI-07-01-00660
              •	 developing regional data conferences to provide the information currently presented
                 only at national conferences to state staff and ACF regional office staff unable to attend
                 conferences held outside their respective states or regions,

              •	 utilizing and training regional office staff to provide increased support to states,
                 especially immediately prior to reporting deadlines,

              •	 posting more current and comprehensive AFCARS information on the ACF website,
                 and

              •	 exploring ways to expedite discretionary AFCARS reviews (e.g., perhaps combine
                 AFCARS data system reviews with other federally-mandated reviews) to help states
                 resolve difficulties associated with data reporting.

ACF Should Develop Incentives to Help Ensure State
Compliance With AFCARS Regulations

         Considering the importance of accurate foster care and adoption information, ACF needs to
         have methods to help ensure that states are motivated to accurately and consistently report
         AFCARS information. The ACF should

              •	 document past compliance with AFCARS requirements for all states to establish a
                 baseline,

              •    monitor future AFCARS reporting, and

              •	 develop incentives or new penalties, commensurate with varying levels of compliance,
                 to encourage accurate and timely reporting of AFCARS data.

Agency Comments

         The ACF supports our recommendations and indicates that it is assessing internal agency
         processes for analyzing data and meeting required reporting time frames. The ACF referenced
         recently issued policy guidance regarding trial home visits and indicated that it will consider
         issuing clarifying guidance to alleviate inconsistent reporting of foster children included in
         juvenile justice populations. The ACF also stated that it will support ACF regional meetings
         focused on data-related issues, provide training to and utilize regional office staff in providing
         technical support to states, and explore ways to expedite AFCARS assessment reviews. The
         ACF will monitor and document compliance with AFCARS standards and seek ways to
         encourage timely and accurate reporting of AFCARS data. The full text of the comments
         provided by ACF are contained in Appendix C of the report.




AFCARS: Challenges and Limitations                    13                                       OEI-07-01-00660
                                                                                    APPENDIX A



                                       History of Foster Care 

                                                 and

                                     Early Data Collection Efforts


         Federal foster care funds were first made available in 1961 to provide maintenance payments
         for children removed from Aid to Families with Dependent Children (AFDC) eligible families, in
         accordance with federal requirements. The federal role in foster care and adoption assistance
         was expanded with implementation of the Adoption Assistance and Child Welfare Act of 1980
         (Public Law 96-272). This Act amended child welfare service laws to institute financial
         incentives for states to provide certain protections for children in foster care under Section 427
         of the Social Security Act (Title IV-B) and established the IV-E Foster Care Program. The
         AFDC foster care component was transferred to the new Title IV-E foster care program in
         October 1982. In addition to maintenance payments to foster care providers, states can use
         federal funds for permanent adoption placements and transitional independent living expenses
         for foster children.

         Through the 1970s and 1980s, the Children’s Bureau within the Administration for Children
         and Families (ACF) and its predecessor agency collected data on foster care and adoption
         from states on an annual and voluntary basis. However, in the absence of federal reporting
         requirements, the reliability and consistency of the data were questionable and of concern to
         those tasked with policy development and administration of the IV-E foster care program.

         The Adoption Assistance and Child Welfare Act of 1980 amended the Social Security Act to
         require federal foster care and adoption reporting. Section 476 of the Social Security Act
         states that “Each state shall submit statistical reports as the Secretary may require with respect
         to children for whom payments are made including information about the legal status,
         demographic characteristics, location, and length of stay of any child in foster care.” This
         reporting requirement applies to all children in foster care under the responsibility of the State
         Title IV-E foster care agency.

         The Voluntary Cooperative Information System (VCIS)

         In response to the 1980 legislation, the Department of Health and Human Services (HHS)
         contracted with the American Public Welfare Association (n.k.a. the American Public Health
         Services Association (APHSA)) to implement the Voluntary Cooperative Information System
         (VCIS). Through this system, APHSA collected annual aggregate information from state child
         welfare agencies about the children in foster care and children awaiting adoption. However,
         state definitions for data reporting elements, definitions of various child welfare services, and
         methodologies used to collect information differed among the reporting states. The data
         reported through VCIS was of limited assistance in developing child welfare policies and
         program planning.


AFCARS: Challenges and Limitations                   14                                     OEI-07-01-00660
         Congress amended Title IV-E of the Social Security Act, based on the need for more
         consistent and useful adoption and foster care information. Amendments to Section 479 of the
         Act established an advisory committee to develop an adoption and foster care data collection
         system. This legislation reflected congressional interest in establishing a system for the
         collection of adoption and foster care data. The advisory committee was charged with

              •	 identifying the types of information necessary to assess the characteristics of children in
                 foster care, the nationwide status of adoption and foster care, and the validity of data
                 collection methods for reporting adoption and foster care information,

              •    developing appropriate national adoption and foster care policies, and

              •    evaluating the financial and administrative impact of various data collection methods.

         In its 1987 report to the Secretary of HHS, the advisory committee indicated that sufficient
         adoption and foster care data were not available and that all states were not providing
         information via the VCIS. They also reported those states submitting VCIS data were using
         different reporting periods, data definitions, and methodologies. As such, the advisory
         committee recommended that the VCIS be phased out and a new mandatory data collection
         system be created. The advisory committee also recommended that states report required
         adoption and foster care information to HHS on a quarterly basis and that the new data
         collection system capture

              •    adoption data on all legalized adoptions,

              •	 foster care information about all children under the care and responsibility of the state
                 child welfare systems irrespective of who is funding the care, and

              •	 demographic information on all foster care children, including sex, birth date, race,
                 ethnicity, previous stays in foster care, service goals, availability for adoption, duration
                 of care, funding sources, and outcomes.

         Adoption and Foster Care Analysis and Reporting System (AFCARS)

         In response to the advisory committee’s report, on January 21, 1994, the HHS published a
         final rule in the Federal Register implementing the AFCARS. These regulations required states
         to collect and report specific information about all children in foster care for whom the state has
         responsibility for placement, care, or supervision. Information about each child under state
         jurisdiction, who had been adopted under the auspices of a state agency, is also required. The
         first AFCARS data were to be submitted to ACF by May 15, 1995, and semi-annually
         thereafter.




AFCARS: Challenges and Limitations                    15                                      OEI-07-01-00660
                                                                                   APPENDIX B




                                     Statewide Automated Child Welfare 

                                            Information Systems


         In recognition of the critical need for effective statewide automated capability to support

         Title IV-E and Title IV-B programs in a comprehensive fashion, section 13713 of

         Public Law 103-66 amended the funding provisions under section 474 of the Social Security

         Act to provide matching federal financial participation (FFP) funding to assist states in the

         planning, design, development, and installation of Statewide Automated Child Welfare

         Information Systems (SACWIS). 


         States were to design these systems as comprehensive case management systems that would

         also collect the required adoption and foster care information for AFCARS reporting. States

         were authorized 75 percent FFP for SACWIS activities for fiscal years 1994 through 1996. 

         Congress extended the enhanced funding through 1997, and the federal percentage was

         reduced to 50 percent thereafter. In addition, states are eligible for 50 percent FFP for the

         operation of the SACWIS systems. 


         As of November 15, 2002, 4 states had completed all aspects of their SACWIS, 24 states

         were operational (including the District of Columbia), 10 were partially operational, 3 were in

         the process of implementing their systems, and 6 states remained in the planning phase. Four

         states chose not to apply for SACWIS funds. 





AFCARS: Challenges and Limitations                  16                                     OEI-07-01-00660
                                          APPENDIX C




AFCARS: Challenges and Limitations   17       OEI-07-01-00660
AFCARS: Challenges and Limitations   18   OEI-07-01-00660
AFCARS: Challenges and Limitations   19   OEI-07-01-00660
AFCARS: Challenges and Limitations   20   OEI-07-01-00660
                                ACKNOWLEDGMENTS

              This report was prepared under the direction of Brian T. Pattison, Regional Inspector
              General for Evaluation and Inspections and Gina Maree, Assistant Regional Inspector
              General for Evaluation and Inspections in Kansas City. Other principal Office of
              Evaluation and Inspections staff who contributed include:

              Deborah Walden, Project Leader                                 Linda Hall, Program
                                                                             Specialist
              Mike Craig, Program Analyst
              Steve Milas, Program Analyst

              Technical Assistance

              Barbara Tedesco, Technical Support Staff





                                     For information or copies of this report, please contact

                                               the Office of Inspector General’s

                                            Public Affairs office at (202) 619-1343.


                    Reports are also available on the World Wide Web at our home page address:
                                               http://www.oig.hhs.gov/

AFCARS: Challenges and Limitations                         22                                    OEI-07-01-00660
AFCARS: Challenges and Limitations   23   OEI-07-01-00660
